mwe.com
Michael Kimberly
Attorney at Law
mkimberly@mwe.com
+1 202 756 8901

June 24, 2021
VIA ELECTRONIC FILING
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543-0001
Re:

Houston Community College System v. Wilson, No. 20-804

Dear Mr. Harris,
Respondent gives blanket consent to the filing of any amicus curiae brief in support of either
or neither party, provided that the brief otherwise complies with the rules of this Court.
Sincerely,

Michael Kimberly

500 North Capitol Street, NW Washington DC 20001-1531 Tel +1 202 756 8000 Fax +1 202 756 8087
US practice conducted through McDermott Will & Emery LLP.

